<html>
<title> - OPPORTUNITIES TO IMPROVE ACCESS, INFRASTRUCTURE, AND PERMITTING FOR OUTDOOR RECREATION</title>
<body><pre>[Senate Hearing 116-290]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-290
 
                    OPPORTUNITIES TO IMPROVE ACCESS,
                     INFRASTRUCTURE, AND PERMITTING
                         FOR OUTDOOR RECREATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2019

                               __________
                               
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
                         ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
35-559               WASHINGTON : 2020        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Annie Hoefler, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3

                               WITNESSES

Kirkwood, Daniel, General Manager, Pack Creek Bear Tours, and Co-
  Chair, Visitor Products Cluster Working Group, Juneau Economic 
  Development Council............................................     5
Lusk, Jeffrey Todd, Executive Director, Hatfield McCoy Regional 
  Recreation Authority...........................................    11
Fosburgh, Whit, President and Chief Executive Officer, Theodore 
  Roosevelt Conservation Partnership.............................    17
O'Keefe, Dr. Thomas C., Pacific Northwest Stewardship Director, 
  American Whitewater............................................    33
Mitchell, Sandra F., Public Lands Director, Idaho State 
  Snowmobile Association, and Executive Director, Idaho 
  Recreation Council.............................................    44

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Access Fund:
    Statement for the Record.....................................    84
Allen, Jim, Mary and Jessie:
    Letter for the Record........................................    92
(The) American Alpine Club:
    Letter for the Record........................................    94
American Alpine Institute:
    Letter for the Record........................................    99
American Mountain Guides Association:
    Letter for the Record........................................   101
Coalition for Outdoor Access:
    Letter for the Record........................................   106
Fosburgh, Whit:
    Opening Statement............................................    17
    Report by the Theodore Roosevelt Conservation Partnership 
      titled ``Off Limits, But Within Reach''....................    18
    Written Testimony............................................    29
    Responses to Questions for the Record........................    77
Kirkwood, Daniel:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    74
Lusk, Jeffrey Todd:
    Opening Statement............................................    11
    Written Testimony............................................    13
    Responses to Questions for the Record........................    75
Manchin III, Hon. Joe:
    Opening Statement............................................     3
Mitchell, Sandra F.:
    Opening Statement............................................    44
    Written Testimony............................................    46
    Region 1 Types of Wilderness.................................    49
    Responses to Questions for the Record........................    81
(The) Mountaineers:
    Letter for the Record........................................   109
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Marine Manufacturers Association:
    Letter for the Record........................................   112
National Outdoor Leadership School:
    Letter for the Record........................................   115
O'Keefe, Dr. Thomas C.:
    Opening Statement............................................    33
    Written Testimony............................................    35
Outdoor Alliance:
    Letter for the Record........................................   118
Outdoor Industry Association:
    Statement for the Record.....................................   125
Outdoor Recreation Roundtable:
    Statement for the Record.....................................   129
People for Bikes:
    Statement for the Record.....................................   134
Recreation Equipment, Inc. (REI Co-op):
    Statement for the Record.....................................   137
River Runners for Wilderness:
    Letter for the Record........................................   139
Washington Watershed Restoration Initiative:
    Letter for the Record........................................   145
Winter Wildlands Alliance:
    Letter for the Record........................................   149
Wyoming Outfitters and Guides Association:
    Letter for the Record........................................   154


                    OPPORTUNITIES TO IMPROVE ACCESS,

                     INFRASTRUCTURE, AND PERMITTING

                         FOR OUTDOOR RECREATION

                              ----------                              


                        THURSDAY, MARCH 14, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to focus on recreation on our nation's 
incredible public lands. This is a fun topic, one that should 
allow us to cover some things that we all enjoy, everything 
from guided bear hunts to four-wheeling to rock climbing.
    In terms of timing, I don't think we could have timed this 
one any better. Just two days ago the Senate was able to work 
with the House, and the President on Tuesday signed our 
bipartisan lands package into law, marking the end of years-
long efforts.
    Again, I thank and acknowledge the great work of the 
Committee, certainly the strong support and assistance from 
Senator Cantwell, to get us there, and Senator Manchin, but 
really, Senator Heinrich, so many who were up to their eyeballs 
in the discussions, the negotiations and the assists, are so 
greatly, greatly appreciated.
    The John D. Dingell, Jr. Conservation, Management, and 
Recreation Act is now law and, as its name suggests, it does 
promote recreation.
    One of the most significant provisions for that purpose is 
the permanent reauthorization of the Land and Water 
Conservation Fund (LWCF). That provides a minimum of 40 percent 
to the state-side program and requires that at least 3 percent 
of funding, or $15 million, whichever is greater, be used to 
increase recreational public access.
    Our lands package also ensures that BLM and Forest Service 
lands are ``open'' unless specifically ``closed'' to hunting, 
fishing, and recreational shooting. This is something that I 
worked on, that Senator Heinrich worked on, with the sportsmen 
and sportswomen for really, almost a decade. It has been a 
long, long time.
    Our lands package also protects some of our most treasured 
landscapes and waterways across the West for future generations 
of recreationists to enjoy.
    Again, I would like to thank President Trump for signing 
our bill, and I thank all of the members and the staff from 
both sides of the aisle in both chambers for their hard work to 
make sure it reached the finish line.
    Senator Daines, you have just come in, but I have been 
acknowledging the good work of so many. The work that you and 
Senator Gardner did on our side to help, again, shepherd it, it 
was greatly, greatly appreciated.
    The lands package is a victory for all of us, and I think 
it is a victory for the country. But we also recognize that 
there is more work to be done, which is why we are here today 
to focus on opportunities to improve access, infrastructure, 
and permitting for outdoor recreation.
    We are seeing more and more folks who just want to be 
outside. They want to be active in our national parks. They 
want to be out there in our forests, in our refuges, and on our 
BLM lands. And that is all great.
    We certainly know firsthand in Alaska how recreating on 
public lands, including our state lands, can enhance 
communities and foster economic development in rural areas.
    If colleagues have not looked at the committee background 
memo that outlines the significant economic impact that we have 
from this industry and the opportunities that then come to us, 
the Outdoor Recreational Satellite Account, the economic 
analysis from the Bureau there, shows that in 2016 outdoor 
recreation generated $412 billion, accounted for 2.2 percent of 
the U.S. GDP, and grew at a rate of 1.7 percent. Those are real 
numbers. Those are real economic benefits, particularly into 
some of our smaller and more remote areas.
    But as the number of visitors increases, the strain is also 
visible on our trail systems, on our roads, our campgrounds, 
and even our bathrooms. The maintenance backlog on our public 
lands is significant, totaling about $21.5 billion across 
Interior and Forest Service lands.
    Competing land designations make it difficult to provide 
adequate access for motorized and non-motorized recreation.
    Another matter we hear a lot about is that special 
recreation permits are taking way too long to be processed. We 
had a situation in the Chugach National Forest, there was a 
guide who wanted to offer an opportunity for people to go ice 
fishing. So this is a pretty low-key operation. He was told 
that there was a moratorium on permit applications and to check 
back in seven years. Seven years for a permit to take folks ice 
fishing. That is unacceptable.
    Rather than encouraging individuals and small businesses to 
use our lands, federal bureaucracy and a lack of resources and 
capacity are oftentimes making it difficult to respond to the 
increasing and diverse needs of recreationists and to provide 
that quality visitor experience.
    What I hope we will accomplish today is to hear from those 
on the ground who have encountered these issues. I want to 
start identifying the fixes that can be implemented, whether it 
is through administrative action or through legislation, to 
ensure that federal lands are open for these incredible 
recreational experiences and continue to be a source of 
economic prosperity.
    I am pleased to be able to welcome Mr. Dan Kirkwood. He is 
Co-Chair of the Visitor Products Cluster Working Group at the 
Juneau Economic Development Council. He is going to speak about 
the tourism that we are seeing in Southeast Alaska and really 
how tourism is impacting the local economy and the 
infrastructure there in the Tongass National Forest. So we 
welcome you to the Committee. Thank you for making the long 
trip back.
    We also have Mr. Whit Fosburgh, who is President and CEO of 
the Theodore Roosevelt Conservation Partnership; Mr. Thomas 
O'Keefe, who is the Pacific Northwest Stewardship Director for 
American Whitewater; Mr. Jeffrey Lusk, who is the Executive 
Director of the Hatfield McCoy Regional Recreation Authority in 
West Virginia; and Ms. Sandra Mitchell, who is representing 
both the Idaho State Snowmobile Association and the Idaho 
Recreational Council.
    So a good panel for discussion here this morning. We thank 
you all for being here. I will now turn to Senator Manchin for 
his opening comments.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman, especially for 
holding this hearing today and prioritizing the topic on the 
Committee's agenda.
    Outdoor recreation is a rapidly growing sector of our 
nation's economy. According to the Bureau of Economic Analysis, 
the recreation economy contributes 2.2 percent of the U.S. GDP 
and supports millions of jobs across the country which is 
particularly important to the economies of rural states like 
mine, of West Virginia, and yours, of Alaska.
    In my home State, we boast wild and wonderful public lands 
and natural resources that bring tourists from around the world 
to enjoy the beauty that West Virginia has to offer--whether 
they be sportsmen, whitewater rafters, boaters, kayakers, 
hikers or climbers. These guests contribute $9 billion a year 
to the state in outdoor recreation in West Virginia.
    Our state is truly a hub for recreation with Canaan 
National Wildlife Refuge, the New River Gorge National River, 
Dolly Sods in the Monongahela National Forest, and so many more 
beautiful sites truly making West Virginia almost heaven.
    I am particularly excited about this hearing today, because 
this Committee is serious about outdoor recreation. I am 
committed to working with Chairman Murkowski and both of our 
staffs to promote, protect, and enhance all forms of recreation 
in our country.
    I know there are numerous members of the Committee, 
especially my good friend, Senator Wyden, who has spent a lot 
of time examining what Congress can do to improve the 
opportunities we have around outdoor recreation.
    As a former Governor of my state, I know the important role 
of the outdoor economy in West Virginia. These activities can 
inject new opportunity in areas with high unemployment and 
depleted tax bases, providing a pathway to diversify economies 
and build economic resilience.
    My colleagues on this Committee have heard me say it many 
times, but West Virginia needs economic development 
opportunities. And I believe the outdoor recreation sector 
offers us more of those and a better chance to survive.
    I am excited that Mr. Lusk, my good friend, Jeff, has 
agreed to join us today to tell us about the 200 jobs his 
organization has helped to create in rural southern West 
Virginia. I have seen it since its infancy and where it has 
grown to.
    The Hatfield McCoy Trail System is now bringing 50,000 
people annually to rural West Virginia, 87 percent of whom 
reside outside of our state. It is a great example of how we 
can leverage our State's resources, love of the outdoors, and 
turn them into real economic drivers.
    So thanks, Jeff, for all the jobs and all the hard work you 
have done. I know it has been a struggle, but by golly, you 
made it, buddy.
    As Chairman Murkowski discussed in her statement just now, 
the public lands package that President Trump signed into law 
on Tuesday, which we were both present for, includes a lot of 
wins for communities across the nation. The bill permanently 
authorizes LWCF, designates 621 miles of wild and scenic 
rivers, and added 2,600 miles to the National Trails System. 
The bill also provided direction to all federal agencies to 
facilitate the expansion and enhancement of hunting, fishing, 
and recreational shooting opportunities on federal land.
    But there is more that can be done to maximize the outdoor 
recreation opportunities in these spaces while balancing 
conservation needs. I am looking forward to hearing from the 
witnesses about ways this Committee can balance the need to 
conserve public lands and waterways with needed infrastructure 
investment, all with the focus of improving the experience of 
an outdoor enthusiast.
    As evidenced by the overwhelming bipartisan support of the 
recently enacted public lands package, it is clear that the 
energy around our public lands and outdoor recreation is strong 
and continues to grow. We must take advantage of this momentum 
to work on additional commonsense solutions and work with our 
agency partners to ensure they are prioritizing recreational 
opportunities. We want to make it easier for businesses to 
locate in rural areas and thrive. We want to make it easier for 
members of the public to access and enjoy all of our public 
lands.
    I know, Mr. Fosburgh, that you will be talking about the 
report your organization published last year, highlighting 
approximately 9.5 million acres of federal lands that Americans 
cannot, I repeat, cannot currently access because they are 
surrounded by private lands.
    I am so proud that we were able to permanently authorize 
LWCF in the public lands bill and to carve out funding 
specifically to gaining access to lands like the ones 
highlighted in your report for hunting, fishing, and other 
types of recreation. I look forward to working with my 
colleagues in leading the effort to ensure that LWCF is 
permanently funded.
    I know that we will be hearing a lot of ideas this morning 
on ways that we can improve the laws governing recreation and 
policy. And I am excited to hear about what specifically we can 
be doing to facilitate access and grow rural economies through 
outdoor recreation. And I am eager to learn more about the 
opportunities we have across the nation in my new role as the 
Ranking Member working with the Chairman.
    So I want to thank all of you for being here today. And 
again, thank you to the Chairman for holding this hearing. And 
let's start.
    The Chairman. Let's start. I think I have identified each 
of our witnesses and your affiliations, so we will skip over 
more detailed biographies. The Committee members certainly have 
that. We appreciate your leadership in various sectors and 
parts of the country and are grateful that you have made the 
trip to be here with us to provide your testimony this morning.
    We would ask you to try to limit your comments to about 
five minutes. Your full statements will be included as part of 
the record.
    Let's begin with you, Mr. Kirkwood, and again, welcome to 
the Committee.
    Dan Kirkwood.

STATEMENT OF DANIEL KIRKWOOD, GENERAL MANAGER, PACK CREEK BEAR 
 TOURS, AND CO-CHAIR, VISITOR PRODUCTS CLUSTER WORKING GROUP, 
              JUNEAU ECONOMIC DEVELOPMENT COUNCIL

    Mr. Kirkwood. Thank you.
    Thank you to the Committee for the opportunity to testify.
    Outdoor recreation on Alaska's public lands is the 
foundation of our state's tourism economy. In Southeast Alaska, 
people come to experience unique cultures. They come to 
experience a pristine wild place, glaciers, mountains and 
forests, bears, whales, wild salmon. Everyone who visits 
Southeast Alaska experiences the Tongass National Forest.
    At Pack Creek Bear Tours, we provide what I'm sure is one 
of the most outstanding opportunities in the world for people 
to get face to face with Alaskan brown bears chasing wild 
salmon.
    The Chairman. Just for the record, they are really not face 
to face.
    [Laughter.]
    They get up close, but we do take care of them, right?
    Mr. Kirkwood. We take excellent care of them, but the bears 
can get quite close.
    [Laughter.]
    The Chairman. We don't want to scare anybody away.
    Mr. Kirkwood. But like so many other businesses in 
Southeast Alaska, we rely on the Tongass National Forest for 
their recreation planning, for special use permitting and their 
management of tourism in the region.
    At the Juneau Economic Development Council we've convened 
the Visitor Products Working Group since 2011. Now the goal has 
been to encourage positive growth in the business sector of 
tourism and to help our businesses and the Forest Service 
better understand each other's opportunities, needs, and 
challenges.
    We've identified a decline in recreation program funding 
and understaffing is one of the key impediments to responsive 
management.
    For many of our businesses, access really means permitting 
as much as it means infrastructure. Companies like mine, we 
need access to undeveloped places where a trail may be all the 
infrastructure we need.
    On the other hand, places like the Mendenhall Glacier 
Visitor Center and Recreation Area, this is one of the most 
visited places in the National Forest System, certainly in 
Alaska. And this is a place where new infrastructure 
developments can increase capacity, can decrease impacts. We 
have supported fee increases at the Glacier Visitor Center, and 
the Forest Service is now working on a master plan that is 
forward thinking and was developed in collaboration with local 
communities as well as businesses.
    But again, permitting is really the core issue for us. Our 
permit administrators do work very hard. They understand the 
resource, they understand our businesses, and we're very 
grateful for their work. However, understaffing means that 
there's at least a dozen ongoing planning projects on the 
Juneau Ranger District alone. There are long wait times for 
permits which impacts our ability to plan for the future and to 
sell tours, and there's a lack of flexibility. The Forest 
Service does desire and strive to be adaptive; however, we 
sometimes hear no because they can hardly keep up with the work 
that they have.
    I think it's important to say that we are not asking for 
unregulated access. We're not asking for unlimited access. We 
want to work with the Forest Service to manage our growing 
sector.
    So we have continued to advocate for a reverse in the 
decline of recreation funding. Tourism, including hunting and 
fishing, are huge economic drivers for Alaska and also a major 
contributor to the Forest Service in the economic sense.
    So the Forest Service does need your direction to 
prioritize these programs and to help our businesses.
    I want to specifically recognize you, Senator Murkowski, 
for the leadership you've shown on this issue, for the steps 
you've already taken in bringing this Committee to work on 
these important issues. So thank you.
    I think that we need new metrics for the Forest Service, 
new targets that capture the value of these lands to our 
industry. The current metrics are vague, and what we measure 
matters. We need to measure things that are going to have real 
impacts for our businesses and communities.
    Pilot metrics have been proposed for Region 10 in the 
Tongass National Forest using data that the Forest Service 
already collects. And I think that this could be a good way to 
capture again the significant economic benefits of tourism.
    We will continue to advocate for collaboration. We need the 
Forest Service to have the ability to be a good partner. We 
need them to have the ability to think long-term, landscape 
level recreation planning and to work with the hundreds of 
tourism businesses in the 33 communities of Southeast Alaska.
    Thank you very much.
    [The prepared statement of Mr. Kirkwood follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    The Chairman. Thank you, Mr. Kirkwood. We greatly 
appreciate that.
    Mr. Lusk, welcome to the Committee.

 STATEMENT OF JEFFREY TODD LUSK, EXECUTIVE DIRECTOR, HATFIELD 
              MCCOY REGIONAL RECREATION AUTHORITY

    Mr. Lusk. Thank you.
    I want to start first by thanking you, Madam Chairman and 
Ranking Member Manchin and members of the Committee, for 
allowing me the opportunity to be here today to talk about 
public opportunities and access.
    My name is Jeffrey Lusk. I'm the Executive Director of the 
Hatfield McCoy Regional Recreation Authority. We're a quasi-
governmental agency located in West Virginia. We were created 
by the West Virginia Legislature in 1996 for the purpose of 
managing ATV, UTV, off-road motorcycle trails on private 
property in southern West Virginia.
    Currently the Authority works with over 90 coal, timber, 
and natural gas companies in southern West Virginia and 
landholding companies on managing these activities on over 
250,000 acres of private property. It's unusual in the country. 
I don't know of another example where the private sector is 
providing such a vast resource in the form of their property 
for public recreation for no monetary consideration. And it's 
very unique, but I think it's very germane to what we're 
talking about today.
    Our trail system is known as the Hatfield McCoy Trail 
System. This past year we had over 50,000 annual riders on our 
trail system. These riders came from throughout the country, 
from several foreign countries. Eighty-seven percent of our 
riders are non-West Virginia residents which means they are 
overnight visitors to our communities.
    Our trail system charges a user permit for these riders to 
come and visit us. This is important in that it helps offset 
the money, the money needed from the public sector to run our 
trail system. A West Virginia resident pays $26.50 for a user 
permit. A non-West Virginia resident pays $50 for a permit. 
Last year those permits generated $2 million. They did not pay 
for our entire operations, but they did do a great deal toward 
our sustainability. By charging a small fee to the user, we're 
able to dramatically reduce the public funding necessary to 
operate our system. That's big for us and for all public 
projects that, if there's a small user fee attached, that fee 
can go a long way to helping maintain that public recreation 
area.
    As I said earlier, we were created by the Legislature, and 
we were not created as a trail office. We were created as an 
economic development office. When you look at our code it 
actually says we're a multi-county economic development 
authority.
    Trails are the venue that we use to be an economic 
development authority. Our agency was created to help diversify 
the economy of southern West Virginia. We use trails to do that 
economic diversification.
    Our job is to create an atmosphere and a product, an 
infrastructure, which is the trail system, where entrepreneurs 
can open up businesses to provide the needed services for the 
riders that visit our system.
    And it's working. We've had over 50 businesses open up 
along the Hatfield McCoy trails. These are the usual businesses 
you would think about such as lodging, cabins, campgrounds, 
restaurants, but also some very unique trail-oriented 
businesses like ATV outfitters. We've also had some moonshine 
distilleries open up that are providing tours and showing 
people about what is a piece of West Virginia's history, this--
what used to be a secret--lucrative business is now something 
where you can go into a regulated facility and take a tour. And 
it's driven by the fact that we have these non-West Virginia 
residents, these visitors to our trail system coming to our 
area, buying their permits, staying in our lodges. That's what 
supports all these businesses.
    And I will say it's challenging for our entrepreneurs when 
you're in a rural area, and southern West Virginia is not 
unique. We've suffered, as many rural areas, with the change in 
our economy.
    Southern West Virginia was built around mining, timber, 
natural gas extraction. Those industries have continued to 
mechanize and decline. And we had to diversify our economy. We 
saw tourism, trails, access to public recreation areas as a way 
to do that and entrepreneurship as a way to get to that 
vehicle.
    As Senator Manchin had said, our project has created over 
200 jobs in southern West Virginia. It's provided business 
opportunities to over 50 entrepreneurs. These are companies 
that are there, doing business in southern West Virginia, 
creating jobs.
    And I will tell you there's a great value to a job in a 
rural area. When a job in a rural area is a whole lot harder to 
come by and it means a lot more than a job in a more prosperous 
area.
    Going on to why we feel like what we're saying is germane 
today. You are the Federal Government, the largest neighbor to 
many of the rural communities throughout the country. There are 
great opportunities for those rural communities to use the 
property through trail development, outdoor recreation, to 
create and make their economy around your lands.
    It will require investments. It will require coordination. 
I know that some of the property has been set aside for use for 
natural resource extraction. We're a great example of how that 
resource extraction can happen in tandem with public 
recreation. So as their neighbor, I feel that it's on all of us 
to look forward and to find ways that you can partner to not 
only preserve these lands but also make these lands available 
for economic development to help these rural communities.
    I'd also like to end, and I'm getting to the end of my 
time, but to say that, you know, we've enjoyed many of the 
programs that you have developed here at Congress. The 
Appalachian Regional Commission, the federal EDA, the AML Pilot 
Program, all these programs provide funding that we've utilized 
and we do appreciate the investment you've already made in our 
rural communities.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Lusk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. Thank you, Mr. Lusk, we appreciate that.
    Mr. Fosburgh, welcome.

   STATEMENT OF WHIT FOSBURGH, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, THEODORE ROOSEVELT CONSERVATION PARTNERSHIP

    Mr. Fosburgh. Thank you, Chair Murkowski, Senator Heinrich, 
Ranking Member Manchin. So privileged to be here today to talk 
about infrastructure for outdoor recreation and ways we can 
also improve access.
    I'm Whit Fosburgh. I'm the President and CEO of the 
Theodore Roosevelt Conservation Partnership (TRCP), a national 
coalition of 58 sporting and conservation organizations plus 
about 92,000 individual members and supporters all united to 
ensure that all Americans have quality places to hunt and fish.
    As was mentioned, according to the U.S. BEA, outdoor 
recreation accounts for 2.2 percent of GDP and about 4.5 
million jobs. According to the U.S. Fish and Wildlife Service, 
more than 40 million Americans age 16 or older hunt and/or 
fish. Collectively, expenditures on hunting and fishing total 
about $61 billion a year, and 483,000 Americans are directly 
employed in the hunting and fishing industries. To put that 
number in context, about 180,000 Americans are directly 
employed by the oil and gas industries.
    Yet there are warning signs about the future health of the 
hunting and fishing economy, especially on the hunting side. In 
2011, about 13.5 million Americans hunted. In 2016, that number 
had dropped to 11.5 million.
    There are several reasons for this decline that go well 
beyond the purview of this hearing. But when most people are 
asked why they stopped hunting, the number one reason that is 
given or the two top reasons are one, loss of places to hunt 
and too little time to hunt. And obviously those two can be 
related. As you lose close-to-home access and have to travel 
further, you lose those quality access opportunities.
    So I'm going to summarize five steps I think Congress and 
the Committee can take to spur outdoor recreation and spur the 
outdoor recreation economy by improving access and the 
infrastructure related to recreation and hunting and fishing.
    As Senator Manchin mentioned, last summer TRCP teamed up 
with onXmaps to produce a report called ``Off Limits, But 
Within Reach.'' Copies of the report have been provided to the 
Committee and will be submitted for the hearing record.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Fosburgh. That report documents that 9.52 million acres 
that belong to all the public are essentially off limits to the 
public because they are landlocked without any legal access 
right.
    The first priority for Congress should be getting public 
access to their public lands. This can be done through targeted 
Land and Water Conservation Fund projects, especially given the 
fact that the fund has now been permanently reauthorized and 
includes a requirement that three percent of expenditures be 
used to expand public access to public lands.
    And I want to thank Chairman Murkowski, Senator Heinrich, 
and others for their dedication to this issue. On the access 
one, Senator Heinrich and his Hunt Act were a part of S. 47 and 
will go a long way to opening up a lot of these lands.
    But fully funding Land and Water Conservation Fund is 
probably the single most important thing we can do to expand 
access to our landlocked public lands.
    Second, neither the Forest Service nor the BLM are 
currently equipped to reliably identify where they do or do not 
hold legal access across private lands or where they ought to 
prioritize access projects. This is because many of the 
agency's access easement records are still held in paper files 
in the basements of local offices and cannot be integrated into 
the digital mapping systems that are foundational to public 
lands management in the 21st century. Congress should direct 
the Forest Service and BLM to digitize all easements into 
electronic databases and give the agencies funding to do that 
quickly.
    Third, Congress should address the maintenance backlog on 
public lands because Congress fixed the fire funding mess in 
2018. Thank you very much. In 2020, the Forest Service should 
have additional resources to fix degraded roads, trails, 
campgrounds, boat ramps, and other things that directly hamper 
recreational access.
    But this alone will not solve the problem. If Congress 
decides to move forward with a maintenance backlog bill or an 
infrastructure bill, this is a huge opportunity to promote 
recreational access and the outdoor recreation economy.
    Congress should also focus on nature-based solutions in any 
infrastructure bill. For example, rebuilding barrier islands 
can help protect coastal communities and provide important fish 
and wildlife habitat as to promote expensive, short-term 
solutions like bigger seawalls.
    Fourth, Congress should support making recreational access 
a consideration in the BLM Land Disposal process. As part of 
FLPMA, BLM is required to identify lands that are suitable for 
disposal, but today access is not one of the criteria that they 
look at and this needs to change. The Committee should 
encourage Interior to add recreation access to the BLM disposal 
criteria and this should change--and this change should be 
codified in statutory law when and if FLPMA is reauthorized or 
amended. To his credit, Acting Secretary Bernhardt is looking 
at making this change administratively.
    Finally, we need to address climate change with smart 
public lands policies. Perhaps the biggest threat to hunting 
and fishing and access in this country is climate change. We 
see it through changing migration patterns, fishing closures in 
places like Montana, algae blooms off the coast of Florida. All 
of these things impact the recreation economy. If properly 
managed, public lands can become a bulwark against the worst 
impacts of climate change and it does well, as we think about 
our public lands policies that help the climate are generally 
good for fish and wildlife and therefore, good for fishing and 
hunting.
    Thank you and happy to answer any questions.
    [The prepared statement of Mr. Fosburgh follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. Thank you, Mr. Fosburgh. I appreciate the 
very concrete suggestions that you have outlined and look 
forward to discussing them.
    Dr. O'Keefe, welcome.

     STATEMENT OF DR. THOMAS C. O'KEEFE, PACIFIC NORTHWEST 
           STEWARDSHIP DIRECTOR, AMERICAN WHITEWATER

    Dr. O'Keefe. Yeah, thank you, Chairman Murkowski, Ranking 
Member Manchin, members of the Committee. My name is Thomas 
O'Keefe. I'm the Pacific Northwest Stewardship Director for 
American Whitewater.
    Founded in 1954, American Whitewater is a national river 
conservation non-profit with a mission to protect and restore 
America's whitewater rivers and enhance opportunities to enjoy 
them safely.
    I want to first say something about rural economic 
development which has been mentioned here. I grew up in rural 
Upstate New York, in the town of Norwich, population of 8,000 
people. I've witnessed firsthand the struggles of a community 
that has seen locally-based manufacturing leave the town with a 
commensurate decline in the local economy.
    But as a youth, I could hunt, fish, swim, boat, ski, simply 
by walking out the back door. Outdoor recreation, these 
opportunities provide real economic benefit to rural 
communities.
    Our organization sponsors the Gauley River Festival in West 
Virginia. It generates over $1 million in direct spending in 
that local community which is significant in a town of 3,500 
people.
    But enhancing opportunities for outdoor recreation is about 
more than providing jobs for seasonal raft guides or bartenders 
serving a tourist town. It's about providing infrastructure, 
connectivity to global markets, access to outdoor recreation 
amenities that make communities desirable places to live, work 
and start a business. We need to think beyond tourism to build 
communities that have an economic base for workers and their 
families who value the opportunities for close to home 
recreation.
    How do we do that? The recently passed Farm bill promoting 
synergy between rural development programs and the Forest 
Service at USDA is one example of this. But we need to do more 
of this, promote more of this within the Federal Government and 
between the states through the state outdoor recreation 
offices.
    Access to public lands and waters and the experience the 
public can enjoy in them begins with smart agency planning as 
well as quantifying the diversity of activities occurring on 
public lands. With organic acts like the Wild and Scenic Rivers 
Act or the Wilderness Act, there's a requirement to inventory 
eligible areas for their conservation value during the land 
management planning process. No such requirement exists for 
land management agencies to prospectively evaluate where areas 
for outdoor recreation are suitable.
    We also need to place a greater focus on outdoor recreation 
among a diversity of federal agencies including those where 
outdoor recreation is not the primary objective. We also need 
to quantify the quality of visitor experiences, not just the 
number of visitors. We need to support efforts of federal 
agencies to do this and integrate the information to decision-
making and personnel evaluations.
    I want to speak to infrastructure. For our members, clean, 
healthy rivers are the real infrastructure for outdoor 
recreation. But we also need facilities, roads, trails and ways 
to access these public lands. And while national parks have 
received much of the attention, chronic underfunding of public 
lands and local parks applies broadly and solutions to this 
issue cannot be restricted to the national parks.
    We need renewed partnership between the Federal Government, 
tribal, state and local authorities. We need to fully fund the 
Land and Water Conservation Fund.
    Let me say something about outfitter and guide permits. 
Many of our members own or work in small businesses that 
provide guided opportunities for individuals and members of the 
public to safely enjoy public lands in an environmentally 
respectful way. To do this requires an outfitter guide permit.
    Let me just tell you when--brief story. Sam Drevo owns eNRG 
Kayaking in Oregon. He was on a waiting list for 12 years to 
get a permit for his national forest, and he found that it was 
easier to take his clients and customers to Costa Rica than the 
national forest in his backyard. That's something we need to 
take a look at.
    I want to touch on limited entry permit systems. Many of 
our popular rivers across this country have permits that are 
distributed on an annual basis through lotteries. For many of 
these rivers the allocations and capacity limits have not been 
updated in decades. Changes in the way people recreate, the 
equipment they use, and the experiences they seek necessitate a 
regular assessment as to whether current management strategies 
and the plans that guide them are meeting public needs.
    Finally, I'd like to close by just saying that as you've--
thank you for holding this hearing. And as you further consider 
the topic of access to our public lands and waters, I'd like to 
reflect on the fact that we come from an incredibly diverse 
country. Where I live tribes have had a long cultural 
connection to the landscape. I hope you will seek out their 
perspectives as well as those of other communities across this 
country, rural and urban communities, communities of color. We 
need to expand the conversation.
    Thank you.
    [The prepared statement of Dr. O'Keefe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    The Chairman. I absolutely agree. Thank you, Dr. O'Keefe.
    Ms. Mitchell, welcome.

 STATEMENT OF SANDRA F. MITCHELL, PUBLIC LANDS DIRECTOR, IDAHO 
  STATE SNOWMOBILE ASSOCIATION, AND EXECUTIVE DIRECTOR, IDAHO 
                       RECREATION COUNCIL

    Ms. Mitchell. Thank you very much, Chairman Murkowski and 
Senators. My name is Sandra Mitchell, and I come before you 
today with the envious task of explaining the state of 
snowmobiling.
    The Chairman. Microphone.
    Ms. Mitchell. Good point--explaining the state of 
snowmobiling.
    Senator Risch. Idahoans are technically challenged.
    [Laughter.]
    Ms. Mitchell. Snowmobiling is woven into the fabric of 
Idaho and every snow state. It facilitates a sense of solitude 
in ever-crowded landscapes. Snowmobiling reveals the awe-
inspiring beauty of this incredible country dressed in white at 
a time of year when most are in front of a couch, sitting on a 
couch in front of a fireplace. Most importantly, snowmobiling 
unites families and friends in play. After all, most of life's 
great memories are not created on a couch.
    Snowmobiling in America is big business. It generates about 
$26 billion annually. In Idaho, snowmobiling's total economic 
impact is $197.5 million. Snowmobiling is not only important to 
the economic stability of Idaho. It is the main reason why many 
of our small communities will survive.
    Snowmobiling is changing. It's getting younger. That's 
thanks to the growing popularity of snow bikes, fat tire bikes, 
the hybrid. The hybrid are folks who use a snowmobile to access 
the high country and then ski down. Many ATVers and UTVers are 
now putting tracks on their snowmobiling and using our groomed 
snowmobile trails. And we welcome them.
    All recreationists use the public lands for the same 
reason. Every visitor study shows that. Regardless of the mode 
of transportation, all go to experience the backcountry because 
of the beauty, the wildlife, and for the adventure and 
challenge.
    This does not mean that a snowmobile belongs on every acre 
of public land. There are places where there should be no use, 
places where motors belong and places that should be shared.
    I think it's important to note, that as far as I know, 
there is no such thing as an exclusive snowmobile area. There 
are shared use areas where motors are allowed and there are 
non-motorized areas.
    Snowmobiling is good for the economy, quality of life. Our 
tracks don't last because we ride on a cushion of snow. We go 
up, most wildlife goes down, so life must be easy for the 
snowmobile community, right? Well, we do have our challenges.
    For example, the use of conflict as a reason to justify a 
snowmobile closure. We understand that there will be 
restrictions but they should be established on good scientific 
data, not preferences or perceptions or assumptions. Decisions 
driven by real and substantive resource problems or by 
Congressional designations are not at question. However, social 
issues, such as conflict, drive many allocation decisions. All 
users of the public lands must be treated equitably. We suspect 
that when a motorized recreation is granted the first exclusive 
use area and it becomes evident that raising issues of conflict 
can hurt one side as much as the other, most of the shouts of 
conflict will abate.
    The Management of Recommended Wilderness. In the Northern 
Region, Region 1, which includes 12 national forests, 
Recommended Wilderness is managed as Designated Wilderness. The 
policy was adapted around 2006. The assumption behind the 
policy statement seems to be that motorized and mechanized 
recreation is automatically incompatible with RWA's. The proper 
test is whether the specific motorized/mechanized activity 
somehow compromises the area's future potential for designation 
as wilderness. That is the official policy of the Forest 
Service but not the policy of Region 1. A consistent nationwide 
policy is needed. We believe that can be accomplished with a 
Secretarial Order.
    Winter Travel Planning. I have yet to see a Forest Plan or 
a Travel Plan that has increased motorized recreational 
opportunities. In fact, every process in which I have worked, 
snowmobilers lose areas and summer motorized users lose trails. 
The solution would be to start every Forest Planning with a 
clean slate. Remove all the lines except for the designated 
areas and reevaluate those areas. The areas change. Nature 
changes them. Fire changes them. The uses change. Why don't we 
go back and reevaluate each time?
    I thank you for this opportunity to talk about 
snowmobiling. We truly value the opportunity to ride on our 
public lands. The value is unmeasurable and we know that, 
because loss has taught us the worth of those lands. A young 
snowmobiler once told me that he had spent years and years 
sitting around listening to `old timers' tell them about where 
they used to ride, and it motivates him to stay involved and to 
protect access so that he can show his children and 
grandchildren where they ride and let them experience the joy 
and wonder for themselves.
    Thank you.
    [The prepared statement of Ms. Mitchell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. Thank you, Ms. Mitchell. I appreciate your 
testimony as well. The only disagreement that I might have with 
you is you all call it snowmobiling. In Alaska, it is snow 
machining.
    We are all talking about the same means of getting around, 
and it is just the terminology. I think it is parochial stuff, 
or whatever it is, but thank you for this.
    As I look to the members that have come in and out and are 
here to participate in this hearing, we are all hunters. We are 
all fishermen, hikers, those who really enjoy the great 
outdoors and whether it is on motorized, snow machine, 
snowmobile, or using your own legs to get you out skiing or 
just hiking around, it is a recognition that it is all ages, 
all parts of the country and in how we make this access 
available is important to us.
    And you, several of you, have hit on what we are seeing of 
late with decreased access that comes about because you don't 
have the ability to go out and hunt and fish because you don't 
have availability of the lands as much as before.
    But I want to focus a little bit on the permitting aspect 
of it because Dr. O'Keefe, you mentioned the situation in 
Oregon. It is easier to take your clients down to Costa Rica 
than to get out on a river there. Mr. Kirkwood, you had 
mentioned the challenges that go with the permitting in just 
the timeliness. Several of you have said you don't have a 
problem with small user fees, and what I am trying to 
understand here for purposes of today's testimony is we know 
that we need more people processing the permits, okay. We know 
we need to deal with this timeline and the uncertainty that is 
out there.
    I am curious to know, from a cost perspective, how big of 
an impediment is that to a small, local outfitter. Are the 
fees, are the permit fees, higher than might be reasonable? 
Because really, that is a big barrier if you can't afford to 
get onto and use the public lands, that is an issue.
    Dr. O'Keefe, you look at a river. A river just doesn't stay 
in Oregon. They might in Alaska, but most of them will cross 
multiple state jurisdictions. And you know, you need to get 
multiple permits if you are going to be guiding down a river 
that crosses certain areas.
    So if we can have a three-and-a-half-minute conversation. 
Everyone can jump in here, but I need to understand better what 
the barriers are when it comes to the permitting process. Have 
at it. Dr. O'Keefe, you look like you are leaning in first.
    Dr. O'Keefe. Yeah, well, I'll jump in here.
    I mean, I think, one of the things is just to make this a 
priority for land managers and river managers. And you also 
touched on, you know, rivers do cross jurisdictions and having 
better coordination for a river system that crosses between 
Bureau of Land Management land, Forest Service land, National 
Park Service land. Currently an outfitter has to interface 
directly with each of those agencies individually, and there 
are opportunities for better coordination.
    The Chairman. So do they currently coordinate if you are 
moving from BLM?
    Dr. O'Keefe. No.
    The Chairman. So it is literally, there is no place to go 
for a one stop shop permit if you are this river outfitter and 
you are going to go through BLM to Forest Service?
    Dr. O'Keefe. That's right. And it's even more complicated 
than that. There's often not even a person to go to at a lot of 
these agencies.
    So, a lot of times, you know, you make a phone call to the 
district ranger. He sends you to someone. Then you get sent to 
someone else. And I've seen correspondence records from some of 
these outfitters where it's usually, literally taken them years 
and 12 different individuals they've spoken to within an agency 
and often requires a member of Congress to intervene to 
actually assist the process and move it along.
    The Chairman. What about on the cost side? Who wants to 
speak to that? Are they reasonable?
    Mr. Kirkwood?
    Mr. Kirkwood. We don't think that the fees are 
unreasonable.
    The Chairman. Okay.
    Mr. Kirkwood. The fees are appropriate, and we're happy to 
help pay our way.
    What we see as a challenge is the backlog of planning. And 
this is where collaboration for large landscape scale planning 
on recreation could be a big opportunity.
    The Chairman. I think that was mentioned previously as 
well.
    So, other issues with permitting? We've got backlog, 
timeliness. Would it help if there was a time period within 
which you know you should expect a response back on your 
permit?
    Dr. O'Keefe. I would say absolutely because, I mean, I've 
seen situations where someone contacts the agency and there's 
literally no response back, so.
    The Chairman. Well, that is where we get involved.
    Dr. O'Keefe. Right, I know.
    The Chairman. That is where they call their Senator and 
say, we need help because we are trying to get this heli-ski 
permit and we have already missed this season and we are going 
to miss next season. So you know, that, in fairness, should not 
be our job to help navigate you through this.
    Dr. O'Keefe. I agree, yeah.
    The Chairman. That is why I am curious about what more we 
can be doing to make sure that we have a process that is 
reliable. One that says check back in seven years for your ice 
fishing permit, to me, is not a decent process.
    Okay. Let me turn to Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Let me apologize to all of you. I had another meeting. They 
just double book us sometimes, and I had to get that one going.
    Anyway, I appreciate so much all of you being here with 
your expertise.
    The western lands versus eastern lands are very different, 
and I am learning that. I am learning about BLM. I have never 
lived out West. I was born and raised in West Virginia.
    My friend Jeff here, Jeff Lusk, he has come into it. He has 
always been from the coal fields. He is from where I am from. 
And I understand there are challenges you might have, Jeff.
    You might explain a little bit, the successes you have had 
with Hatfield McCoy, how it came into fruition, how it took 
private-public partnerships, where we are at now to expand it. 
And you have the same challenges working with private 
landowners as the federal lands, like BLM. Kind of explain the 
differences you have there and the challenges and where you 
are.
    Mr. Lusk. Thank you, Senator.
    Yeah, so our project is on private property. We work with 
over 90 coal, timber, and natural gas companies who provide 
us----
    Senator Manchin. Which would be equivalent to basically 
working with BLM?
    Mr. Lusk. Yes.
    [Laughter.]
    Who provide us access to over 250,000 acres of their 
private property. And we work with these companies. They 
primarily hold the property for natural resource extraction.
    We actually put a public recreation area in amongst this 
natural resource extraction. They, for no monetary 
consideration, they allow us to use the property. We provide 
policing, indemnity. We are stewards of the property. We manage 
this activity. In turn, we don't pay them for use of the 
property, but they do give us a limited license agreement to be 
on the property.
    This has created a catalyst for economic development in 
southern West Virginia. And as you said, the challenge is we're 
working with 90 companies and you guys are working with the 
BLM. And it may be easier to work with these 90 companies, so I 
can understand that.
    But we use the property. It's an economic development tool. 
And as the Federal Government being the largest neighbor to 
many small cities and towns, it's imperative that they do have 
access, that there is economic development activities just like 
the folks going bear hunting or the folks snowmobiling to these 
properties. For these communities, it's their lifeblood.
    In southern West Virginia we are reinventing cities and 
towns by providing access to this historically closed off, 
private property for the use of ATVing, off-road motorcycling, 
UTVing, but it could just as easily be hiking or bear hunting 
or snowmobiling by providing access, by charging a fall permit, 
by policing the property, I think that there's a good marriage 
there.
    And for the towns that are adjoined by federal lands or 
adjoined by vast tracts of private property, they need access. 
And I think it's tantamount on all of us to give them access. 
And I think it can be done in a good stewardship way and also 
be an economic development project.
    Senator Manchin. Mr. Fosburgh, if you could. We just passed 
the John D. Dingell, Jr. Conservation, Management, and 
Recreation Act, which we call the Public Lands bill. In your 
estimation, how does it help with recreational access or is 
there still some challenges we have to overcome?
    Mr. Fosburgh. You know, thank you, Senator.
    And first, you know, S. 47 was a great accomplishment. And 
I think it was really a team effort from both sides of the 
aisle and really shows these issues should not be partisan. 
This is something that ought to bring us together. I think 
that, you know, all sorts of different aspects of that bill 
impact outdoor recreation and infrastructure.
    The Land and Water Conservation Fund is obviously the great 
big one. And the fact that now, not only has it been 
permanently reauthorized, but that three percent of the 
expenditures are targeted toward access type projects, it's 
going to change, I think, the way the agencies look at this 
fund from the beginning, and it's going to change the way it 
gets implemented on the ground.
    I mean, LWCF has got, sort of, a bad rap, I think, in the 
past for like funding a far-off butterfly habitat that doesn't 
impact average people, which is not true.
    But this really, I think, brings the focus really back to 
recreation type projects--access, hunting, fishing projects. 
And I think, you know, with that, if we can fully fund that in 
particular, you know, we have, I think, real opportunity here.
    Now part of the problem is you ask the agencies where are 
the key target parcels they need to, you know, go out and do an 
easement with or do an outright----
    Senator Manchin. The nine and a half million acres that's 
inaccessible right now, how do we make that accessible and have 
the public be able to utilize that----
    Mr. Fosburgh. Exactly.
    And if you were to ask the agencies, they'd give you a 
shrug of the shoulders because they don't even know where they 
right now have existing access routes across private land. So 
we've got to get that stuff digitized.
    And then we also have to be thinking about instead of great 
big landscapes that may be a target for an LWCF project, there 
may be one section someplace----
    Senator Manchin. Gotcha.
    Mr. Fosburgh. ----that opens up 10,000 acres of national 
forest behind it. And thus, the agencies have not looked at 
these, you know, projects in that way in the past.
    So I think that it's, I think it will be a game changer in 
terms of the way we view these projects moving forward.
    Senator Manchin. Thank you, Madam Chair.
    I have more questions, but I will wait for another round.
    The Chairman. Yes, thank you, good.
    That is a good question though. I appreciate it.
    Senator Daines.
    Senator Daines. Chair Murkowski, Ranking Member Manchin, 
thank you.
    And Joe, I know they say West Virginia is almost heaven. We 
have to get you out West where you can experience heaven in 
Montana. We will do that.
    Senator Manchin. You are a little bit higher than we are, 
but we are still almost heaven.
    [Laughter.]
    Senator Daines. This has been a historic week for outdoor 
recreation and conservation with the enactment of the lands 
package signed Tuesday by the President.
    I want to thank Senator Heinrich. Martin, it was great 
working with you and Chair Murkowski and many others on this 
Committee in a true bipartisan fashion to get this done. So 
thank you.
    I truly believe that this bill will pay dividends to not 
only our outdoor economy, which is a booming $7 billion in 
Montana, but really for generations to come.
    This permanent reauthorization of LWCF, I don't think can 
be overstated what this means--locking in these key reforms, 
increasing the dollars reserved for access easements, 
provisions requiring agencies to prioritize public land access 
and to keep them open unless the state or another statute 
authorizes their closure. More Montanans, more Americans will 
be able to enjoy our country's favorite outdoor activities.
    Mr. Fosburgh, good to see you here.
    According to TRCP, Montana alone has one and a half million 
acres of inaccessible lands, public lands. I wanted you to 
maybe comment on what permanent reauthorization means for LWCF 
and how that can help in some of these access issues we face in 
states like Montana?
    Mr. Fosburgh. Well, thank you, Senator Daines.
    I think that as we were just talking about, I mean, now 
that it is permanent, we don't have to come back every three 
years and worry about the existence of the fund. We can really 
think longer term about where, strategically, individual 
projects really make some sense and it can be leveraged into 
something much bigger.
    And I use the example of that individual section that may 
open up 10,000 acres. But I think that, you know, so I think 
that is the real opportunity moving forward, particularly if we 
can fully fund LWCF. But also, it's going to require also just 
the agencies to do things differently.
    We've talked about the permits that are, I mean, the 
easements that are sitting in cardboard boxes in basements some 
place. We've asked the agencies how long, under the current 
situation, it would take for them to digitize all their access 
records and we got in the ballpark of 10 to 20 years. I mean, 
this is ridiculous. I mean, this is the 21st century. We ought 
to have this stuff digitized--if it takes a little bit more 
money to do it.
    And hey, listen, I don't want to bash the agencies because 
they've been starved for years. They have guys doing 
permitting, I mean, this stuff, doing litigation work. I mean, 
you know, I feel badly for them. They need more resources to be 
able to make this a priority.
    Senator Daines. Thank you, Mr. Fosburgh.
    Sometimes when people think about outdoor recreation, they 
think it is just about hiking and backpacking. By the way, 
those are two of my passions. That is what we spend most of our 
time doing in the summertime and occasionally in the winter.
    However, according to the Bureau of Economic Analysis 
reporting the outdoor economy, it is boating and fishing that 
is some of the largest outdoor activities. In fact, by the way, 
LWCF provides 70 percent of the fishing accesses in Montana. 
That is huge if you think about access, and we have great 
stream access laws in Montana. I would invite other states to 
think about what we have done in Montana. The public can get 
from high water mark to high water mark on our streams.
    But the largest outdoor activity generating nearly $37 
billion in gross output was actually U.S. motorcycling and 
ATVing which is one of the fastest growing, highest grossing 
activities accounting for about $20.3 billion. Snow activities, 
snowmobiling, we talked about this earlier, generate $11 
billion.
    I recently wrote the U.S. Forest Service about some 
concerns that we have regarding the planning process for 
closing historic trails in the Bitterroot National Forest. In 
that forest we recently saw closures on hundreds of miles of 
trails and thousands of acres to bikers, mountain bikers, and 
snowmobilers in the Sapphire and Blue Joint WSA despite decades 
of historical use.
    Ms. Mitchell, how do you see the closures of historic 
trails like this hurt families and our outdoor recreation 
economy?
    Ms. Mitchell. Thank you.
    Senator Daines. You might want to hit your button there 
too. Thank you.
    Ms. Mitchell. There's that button thing again.
    I thank you for the question.
    It definitely damages opportunities. It hurts the families 
who have historically ridden in these areas. They can no longer 
ride in them. Then that puts them into other areas that they 
haven't ridden. And we're going to have more people riding 
those areas.
    It's important to disperse recreation. This works against 
it.
    But most importantly, it hurts the economies. There are 
many areas in Montana that have joined Idaho that were ridden 
for years and years and those people now come to Idaho to ride 
because they can no longer ride in Montana. We appreciate the 
benefits to Idaho, but we need to get the people back in 
Montana.
    Senator Daines. So I want to follow up about how the Forest 
Service manages what we call, RWAs, Recommended Wilderness 
Areas. Right now, there is no consistent standard for how the 
Forest Service manages recreational activities in areas they 
have recommended for wilderness but have not yet been 
designated by Congress. In some regions the Forest Service 
continues to manage for existing multiple use recreation such 
as snowmobiling and in other areas they prohibit every activity 
except horses and hikers.
    Ms. Mitchell, could you speak briefly on how the 
inconsistency makes it difficult for outdoor recreation groups, 
like yours, and what do you think is the solution?
    Ms. Mitchell. Well, sir, this is an issue on which I have 
been working for about ten years, and it is a very frustrating 
issue.
    In fact, the Gallatin National Forest just released their 
proposed action and they are going to add 116,302 more acres of 
recommended wilderness that will be managed as wilderness to 
that forest.
    The Forest Service is doing the job of Congress. It's up to 
the people working with our elected officials to determine 
which lands qualify for wilderness. And that's a difficult job 
but it was meant to be difficult. Wilderness is very 
restrictive and we need to make sure it's in the right place 
for the right reasons.
    Now, the Forest Service has decided, and on many occasions 
I have been told by Forest Service personnel, that the reason 
for this policy is because it eliminates the opposition to 
wilderness. And I do not believe that's their job.
    It is costing the economies of Idaho and Montana because of 
this policy and I truly believe that because this is not a 
problem that Congress created, there's no directive. There's no 
law. There's no policy from Congress that directs them to 
manage recommended wilderness as wilderness. This is an 
administrative issue that can best be solved with a Secretarial 
Order that provides a consistent policy for the management of 
recommended wilderness.
    Senator Daines. Okay, thank you. I am out of time.
    Thanks, Madam Chairman.
    The Chairman. Thank you, Senator Daines.
    Senator Wyden, we are having the hearing that you and I 
have been talking about for some time. So, your turn.
    Senator Wyden. Well, we have, Madam Chair, and thank you 
for championing recreation, scheduling this hearing. Coming 
after the successful public lands legislation, I think, is the 
real one-two punch in favor of sensible resource policy.
    So I want to thank you, and our Ranking Member is off to a 
strong start and has been enormously helpful as well. So I want 
to thank both of you.
    I was just noting the hearing we already had on climate 
change. It has been a long time since that happened. So we are 
off to a really strong start.
    The reason this hearing is so important, and I want to 
apologize to our guests because I am also going back and forth 
with the Finance Committee. We are having important hearings 
today, and otherwise I would be hanging on your every word, as 
I know Senator Heinrich is. He has been a great champion of 
recreation.
    I think recreation has the potential to be a major economic 
engine for rural America. And I want to underline potential, 
because I think people really have not had a sense to capture 
what this could be all about.
    In Oregon not long ago, a young man came up to me and said 
he was making kayaks. He has a big market for these kayaks, not 
just in Oregon but he told me he is looking to export them 
around the world. So this is a value-added kind of commodity. 
And I think there is so much potential here and the challenge 
is in the days of the smartphone to bring the permitting system 
and the regulatory systems in line with the times. That is what 
former House Chairman Rob Bishop and I have done with what we 
call the RNR bill, Recreation Not Red Tape.
    I got into this when I saw, as the recreation season was 
beginning a couple years ago, that people would call me at home 
and they would say they got up in the middle of the night to 
call some agency and they were put on hold. And then after they 
waited a long time, they were told to call somebody else. I 
gather that Dr. O'Keefe has been walking people through some of 
these friendly, wonderful, enjoyable experiences as well. And 
we can do better.
    That is what we did in the RNR bill, and much of it has 
absolutely nothing to do with being partisan. I mean, it is not 
Democratic or Republican to modernize the regulatory system so 
at least it gets into the relevant century because what we have 
today really has remnants of yesteryear.
    So I think what I would like you to do, Dr. O'Keefe, 
because you have spent a lot of time in these precincts arguing 
that smart policy could really be an economic magnet for rural 
areas, is tell us a little bit about what your perspective is 
on how the Federal Government is handling the current system 
with respect to oversight of the recreation system.
    Dr. O'Keefe. Yeah, well, thank you, Mr. Wyden. Thank you 
for the question. And thank you for your leadership and 
everyone on this Committee on S. 47 and particularly all the 
wild and scenic rivers.
    As you know, you come from a state with a lot of wild and 
scenic rivers and we have a----
    Senator Wyden. We are trying to catch Senator Murkowski in 
Alaska. We are coming on.
    Dr. O'Keefe. You're getting close. Thank you.
    So you have a lot of rivers in the state and there's a lot 
of interest in realizing business opportunities on those 
rivers. You know, I shared a story earlier, I've got a whole 
boatload of these, but you've got, you know, constituents in 
the Portland area that are interested in providing guiding 
opportunities, taking people from outside the state, 
introducing them to the great rivers of Oregon.
    Now I can go down to Ecuador and I can hire a guide in 
Ecuador and we can go all over the country and explore 
different places. It's extremely difficult to do that in 
Oregon, if you want to set up a business to be able to do it.
    And as you articulated, the systems in place are very 
antiquated. It requires going in person to the offices, 
literally tracking people down.
    I really appreciate what you've done in sort of launching 
this discussion with the Recreation Not Red Tape Act and doing 
so in a bipartisan fashion, because I sit here today and I 
listen to the issues that we're discussing and, you know, these 
aren't partisan issues. And you know, helping rural economies 
and helping people get outside, I think that's something that 
we can all agree on.
    And so, given the leadership that really came out of this 
Committee to launch a bipartisan discussion on public lands and 
conservation issues, I think we can do the same thing on 
recreation.
    I really appreciate the Chair and the Ranking Member 
holding this hearing, and I think we can do some great work 
together.
    Senator Wyden. Well said. I look forward to working with 
all five of you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden.
    We've got some work to do, but I know you are excited to do 
that.
    Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Let's start with the fact that recreation is now, by far, 
the biggest economic driver on our public lands. And as we 
heard from Senator Wyden, it has a lot of opportunity yet to 
go, especially for rural communities where we really need to be 
thinking about how we build and diversify our economies.
    I wanted to give a shout out to the state lawmakers in my 
home state who last night passed through the second chamber now 
an Office of Outdoor Recreation as people are starting to 
realize that if you cultivate this, you can truly do even more 
than what is already an amazingly vibrant industry.
    I used to be an outfitter guide. I used to do these 
permits. They are not a lot of fun. And I will tell you a 
little story, and I will try and keep it short. But I worked 
for an organization who at the time had been around, oh, about 
70 to 75 years. They have now been around a little longer. The 
Cibola National Forest was one of the places where every year 
we had a permit for Mount Taylor. I called up to check on my 
permit a month or two out before the summer season and I was 
told, sorry, I am working on a land swap this year and it is 
really important, so I won't have time to do your permit. And 
that is the kind of thing that we hear from Alaska to New 
Mexico and everywhere in between.
    And so, one, I think we need to stop, within these 
agencies, treating this as an afterthought. Almost every one of 
these folks who approve permits have another job that is 
actually considered their primary job. There should be people 
whose primary job it is to process this recreation.
    And I want to thank Senator Capito because she and I have 
been working on some recreation reform legislation now for 
several years that addresses the multijurisdictional issue. You 
oftentimes will cross two different agencies in multiple ranges 
or districts and several national forests to utilize one river 
or one wilderness area or one recreation area. We can fix that.
    So I wanted to ask anybody on the panel if they had had a 
chance to look at that legislation? Last year it was Senate 
bill 3550. I know we have been deeply engaged with a number of 
the outfitter guide groups, a number of the non-profits, the 
NOLS (National Outdoor Leadership School) and Cottonwood 
Gulches of the world as well as The Wilderness Society and 
others, as well as some of the outfitter guide organizations 
and wanted to see if any of you had a chance to review that 
legislation. If not, I would highly encourage you to because we 
want to make this open for business. We want to make this work 
better all across the country. Please, if you have a chance, 
take a look at that.
    Mr. Fosburgh, I want to shift real quickly to you on land 
and water. It was an enormous victory to see permanent 
authorization for the Land and Water Conservation Fund for 
habitat and for access, as you point out.
    I was very disappointed to see that the President's budget 
that was just released effectively zeros out that program after 
we just permanently reauthorized it. I am going to urge my 
colleagues to treat that line item as purely advisory, but if 
Congress were to zero out the Land and Water Conservation Fund, 
what would it mean for access in the coming year? What would it 
mean for habitat? For sportsmen?
    Mr. Fosburgh. Thank you, Senator.
    I think that we have a pretty good idea what it would mean 
is that right now we're losing the battle anyway and that's 
with LWCF at that $400 million, give or take, range annually 
and doing some great projects.
    It has the opportunity to do a lot more, particularly of a 
target's access. But if we basically were to lose that program 
and lose funding for that program, everything dries up.
    We've had projects that have been in the pipeline for years 
that are just waiting there, waiting for that green light for 
funding. And at some point, if you're a private landowner and 
you're willing to do a project like this, you're going to throw 
up your hands and just go and do something else, sell out to 
that developer who is offering you a lot more money than this 
would give you in the first place.
    Senator Heinrich. Right.
    Mr. Fosburgh. So I think that the consequences of not 
funding LWCF are dire.
    Senator Heinrich. One of the things we included in S. 47, 
the public lands package, was actually language that I had 
originally introduced called the Hunt Act that just simply 
forces these agencies to figure out what they have access to 
and what they don't and to set priorities. So we intend to hold 
their feet to the fire moving forward to make sure that they do 
just that.
    But I would really welcome your ideas as to how we address 
the digital divide that you talked about, the paper records and 
everything being in the basement rather than, you know, you and 
I probably both have onXmaps on our phones, right? You know 
exactly what land you are on, who the landowner is and it is 
all right there on your phone. Our public lands should be 
similarly responsive.
    Mr. Fosburgh. You're exactly right.
    And I think that, you know, that is a big challenge that's 
only going to get done if it becomes a priority for the 
agencies, otherwise we're going to have that 10 to 20 years 
before they get these things fully digitized which is 
ridiculous.
    Senator Heinrich. Thank you all.
    The Chairman. Thank you, Senator Heinrich.
    Senator Cantwell.
    Senator Cantwell. Madam Chair, I see my colleague here from 
Nevada. Is she? Are you in line to----
    Senator Cortez Masto. No, go ahead.
    Senator Cantwell. Okay, thank you.
    Thank you, Madam Chair.
    I was hoping you were going to talk about Red Rock, but I 
will let you talk about Red Rock.
    [Laughter.]
    Thank you, Madam Chair. Thank you for this important 
hearing on the outdoor economy. Thank you for comments earlier 
about the President's signature to the lands package which 
included making permanent the Land and Water Conservation Fund 
which has been a lot of the discussion here this morning which 
is, I just want to note, a little bit of divine intervention 
here. Most people know that Scoop Jackson was the author of the 
Land and Water Conservation Fund in which he said, ``I'd like 
to remind you that mostly it's to open areas that 90 percent of 
Americans go each year to seek refreshment in body and 
spirit.''
    Madam Chair, the interesting point is, is that after the 
debate in the Senate the Land and Water Conservation Fund was 
passed as a program with 92 votes. The other day when we had 
our vote, it was 92 votes as well. So somewhere in all of this 
is that Mother Nature is very supported by our colleagues and 
definitely something that people want to continue for the 
future. I look forward to ways in which we are going to do 
that.
    Much of the discussion here has been about how to increase 
that continued access. To me, this $26 billion that is spent in 
my state, 200,000 direct jobs and $2.3 billion in annual tax 
revenues just shows you that if we make more investment, we 
will get more return and that the coalition is a pretty broad 
group of people. How do we convince people to put more into 
this economy? How do we go about communicating, particularly 
for rural communities, the value of this equation?
    I know we are going to have a discussion about park and 
maintenance backlog as well, but how do we convince people that 
the level of investment is just more recreational opportunity 
for Americans but it also is an economic value to those local 
communities?
    Dr. O'Keefe or Mr. Fosburgh or Ms. Mitchell?
    Dr. O'Keefe. Yeah, so, I mean you touched on it with the 
Land and Water Conservation Fund. And I think about a community 
like the community of White Salmon where, you know, I know 
you've been and worked on the wild and scenic designation for 
the Upper White Salmon.
    And you know, we have a situation there where the community 
is growing. We're seeing a lot more economic development there 
in that community and it's for access to that close to home 
recreation in telling that story. And we've got a Land and 
Water Conservation Fund project there in that community that is 
an opportunity that needs to get done to preserve the access to 
the river. And you know, the President's budget zeroed it out, 
so.
    Senator Cantwell. Well, there is one community in our state 
that is definitely very interested in this, Lewis County, in 
Centralia. They are very interested in telling the story of 
access and the connecting roads between Mount Rainier and Mount 
St. Helens and what you could do to create a scenic route there 
that were accessible to people.
    So I think communities are trying to figure out how to take 
this resource that is, literally, in their backyard and 
translate that into access because they know that it is just as 
great a tool as anything else that they have for their economy 
but it is figuring it out.
    I think both the Chair and others have mentioned this 
access issue that we have to solve as it relates to permits. I 
mean, we are literally holding people back from having access.
    But I definitely think that we have to identify how much 
solving these problems really does generate rural economic 
development and what we have to do to prioritize some of these 
projects in a way that would help them.
    I guess I went a long way around in saying I am sure right 
now if we wanted to improve that route, most people would say, 
why improve this route from Mount Rainier to St. Helens? People 
would be like, well, you know, how many people are going to go 
that route and how many people are going to do it? But in 
reality, it becomes a huge part of bringing tourists and 
recreation opportunity to a region.
    I just think we have to figure out how to quantify this for 
rural communities so that they, so that somewhere our 
transportation officials and others value this.
    Mr. Fosburgh. Senator, I would just add, and I think those 
are great points, that this is like, you know, a perfect 
example of what should be a really great public-private 
partnership. I mean, the private sector is doing this stuff 
already as, you know, Jeff talks about or as Dan talks about.
    I mean, this is happening across--and the states are coming 
to the table with Offices of Outdoor Recreation, as Senator 
Heinrich just mentioned. And right now, sort of the weak spot, 
is right on the fed side because we have these amazing public 
lands but the recreation infrastructure is in pretty poor shape 
in a lot of places. We can't get to those places in other 
spots.
    I think that the priority that you guys are all making 
right now with the focus on this issue really helps the first 
step on bringing the feds and LWCF to the table in a much more 
meaningful way with the private sector and with the states.
    Senator Cantwell. Now we can hear about Red Rock.
    [Laughter.]
    The Chairman. Thank you, Senator Cantwell.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you and thank you, Chairwoman, 
for this great conversation. I so appreciate it.
    I have been running in and out because I have two other 
hearings, but I have read the testimony and I thank you and 
could not agree more with what I am hearing from my colleagues 
and what I am hearing and saw from the panel.
    Let me just say I am from Nevada. One of the areas that I 
do know is that our outdoor recreation is booming in Nevada, 
right? It generates about $12.6 billion annually, creates 
87,000 jobs and that is because of the beautiful Red Rock 
Canyon National Conservation Area from Mount Charleston to 
Mount Wheeler to the Ruby Mountains to Lake Tahoe to Jobs Peak, 
you name it, I can go on and on and on. These are areas that 
are very exciting--and Gold Butte, let me add that.
    I appreciate this idea of how do we balance everybody's 
interests, all the stakeholders, so everybody has the 
opportunity to participate and how do we streamline it so that 
if you want to get out there and you want to enjoy the mountain 
climbing or rock climbing or hiking or outdoor recreation on an 
ATV or we should be able to figure this out together. So I 
appreciate this conversation.
    One of the things that I am going to be introducing with 
one of my colleagues, Senator Daines, is a bill called the 
Accelerating Veterans Recover Outdoors Act, and it is a Senate 
companion that I am working on with a bipartisan group from the 
House. It calls upon the VA and the Interior Department to 
collaborate to utilize public lands as a medical therapy 
resource for mental health, for physical therapies, for 
preventative care and other health care applications to the 
benefit of our veterans.
    I am just curious. You haven't read it yet, but is that 
something you would support? And let me just go down the panel.
    Ms. Mitchell. Senator, yes, that is something I would 
support.
    In fact, last week, last Saturday, the Idaho State 
Snowmobile Association had their sixth annual Disabled Veterans 
ride, and we bring veterans. They are required to be 50 percent 
or more disabled and we take them snowmobiling for a day. And 
it is an amazing experience.
    The gentleman who started it is a disabled veteran and he 
spent weeks after coming back making lists everyday of all the 
things he couldn't do. And one day he's out in a field, he sees 
the guys with a snowmobile, and he says, hey, can I ride that? 
And the guy says, I don't know why not. And it saved his life. 
It changed his life. And he is now an extreme snowmobiler. He 
boondocks with the best of them. And so, we're giving other 
people, these other disabled veterans, the opportunity to ride. 
And it is amazing. It really is. Getting them outdoors, letting 
them find a way that they can do something fun and exciting. It 
really does make a difference.
    Senator Cortez Masto. Thank you.
    Anyone else?
    Dr. O'Keefe. Yeah, and we've done the same thing. We've had 
a lot of our members and volunteers who have worked with 
veteran's programs in getting those folks in the outdoors has 
been tremendous and we'd love to work with this body to find 
ways to better facilitate that.
    And some of the permitting issues that I've talked about 
earlier and they're in my statement, you know, we've had issues 
with, you know, we've got a group of folks that we want to get 
out and just, you know, trying to get the permit to be able to 
do that safely and legally has been a challenge. So if we can 
work on that, we can--that will help with this too.
    Senator Cortez Masto. Right. No, I appreciate that. And 
that is why we have a close working relationship with our ATVs, 
snowmobilers.
    Believe it or not, I grew up in Southern Nevada, but I also 
grew up appreciating the outdoors and riding snowmobiles and 
ATVs. It is an incredible experience. I think that everybody 
should have that opportunity to experience it if they have the 
ability, and we should provide those opportunities as well.
    One thing I want to jump back to very quickly and maybe, 
Mr. Fosburgh, you can help me with this. My state is home to a 
large swath of unresolved checkerboard lands created in the 
1800s, and it causes a lot of private and public land 
management issues, particularly for some of our local 
communities in our rural areas. Can you comment on land 
management efficiency issues that arise from checkerboard lands 
and how the checkerboard pattern impacts access and permitting 
on public lands?
    Mr. Fosburgh. Well Senator, thank you and it certainly 
presents a challenge because, you know, most states you don't 
require hopping that corner. That's not legal, that air space 
above that corner is private property. So you think you can get 
from one, you know, BLM section to another by jumping that 
corner, but in Montana for example, you can't do that. I'm not 
sure what all the other states are.
    But what it really does is it shows that if you're 
strategic about projects from Land and Water Conservation Fund 
to voluntary public access programs through the Farm bill, you 
can essentially connect a lot of those areas and make 
management a lot easier. In certain cases, things like land 
swaps make a ton of sense.
    Senator Cortez Masto. Right.
    Mr. Fosburgh. But also, just negotiating easements with 
adjacent landowners, something like that. It makes it more 
complicated but, you know, those sections out there, 
checkerboard as they may be, provide great habitat.
    Senator Cortez Masto. Yes. Thank you.
    Anyone else?
    [No response.]
    Senator Cortez Masto. Alright, thank you very much. I 
notice my time is up. Thank you.
    The Chairman. Thank you, Senator Cortez Masto.
    Let's talk a little bit about the infrastructure needs and 
Ms. Mitchell, you note that when you are out in the winter, out 
on a snowmobile or snow machine, it is not like you need to 
have a maintained trail there, but there are other 
infrastructure needs that I think we all recognize have an 
impact.
    It has an impact on access. It has an impact on the 
public's desire to go out and use certain areas if they realize 
that things are just run down or just not well cared for. So in 
the various areas, whether it is snow machining, whether it is 
the opportunities that you have out in the Tongass, Dan, with 
bear viewing and the like. Mr. Lusk, you talk about what you 
have created there in West Virginia on the rivers, but what 
would you view as the critical infrastructure needs? Does it 
just depend on where you are? Trail enhancements, or is it 
making sure that you have a road that can get you to the river?
    We are going to have to prioritize here. I think we 
recognize that. We have an extraordinary maintenance backlog on 
our parks, but we have it on all of our public lands. If you 
were asked to prioritize when it comes to critical 
infrastructure needs that would help you within this outdoor 
recreation visitor opportunity, where do you put your money 
first? Everybody jump in, because you have all thought about 
this. Let's just start with Ms. Mitchell and then go this way.
    Ms. Mitchell. Thank you, Senator Murkowski.
    The motorized recreation community is proud of the fact 
that we pay our own way. We tax ourselves through a sticker 
program and we combine that money, we pool that money, with 
some state gas tax and often federal gas tax and we build our 
own infrastructure.
    We provide----
    The Chairman. So you have a snowmobile association that 
helps build out the trails?
    Mr. Mitchell. We do it through the Idaho Department of 
Parks and Rec and that's where our money is pooled. And that 
goes for OHVs also. They tax themselves with a sticker. And if 
it were not for those funds, we would not be able to ride on 
the public lands the way we do. We build, we groom our own 
trails. And a groomer in Idaho, they cost about $325,000 each 
now, and we have about 30 of them. We build parking lots. We 
plow parking lots. We build bathroom facilities. And everything 
we build is open year-round to all users, both motorized and 
non-motorized. If it were not for those funds, we would not be 
recreating the way we are.
    Our biggest problem in access is simply having the Forest 
Service allow us to use the lands.
    The Chairman. Dr. O'Keefe?
    Dr. O'Keefe. Yeah, I've got two things.
    So one, a lot of our access is on Forest Service lands and 
we depend on Forest Service roads. There's a program that's 
been around for about ten years, the Legacy Roads and Trails 
program, that actually proactively looks at access needs before 
roads wash out or problems occur. I think this body could take 
a look at, you know, creating authorization for that program as 
a formal program.
    And the other thing that I'd like to touch on is private 
forest land. A lot of our members recreate on private forest 
land. That's becoming much more difficult. I don't know, you 
know, private forest landowners, it's their land, they're, you 
know, free to make their rules and regulations but it's 
becoming more and more challenging to enjoy those 
opportunities. So if we could develop more partnerships and 
encourage that, that would be helpful too.
    The Chairman. Good enough.
    Mr. Fosburgh?
    Mr. Fosburgh. Yeah, I would jump in on forest roads as 
well. I think you have, I believe, a two-fer there. You know, 
not only does it expand access and it makes management easier 
too and we're going to do more management on a lot of our 
national forest, particularly with invasive species and, you 
know, the fire risk.
    So, but also, those areas are what, you know, pouring 
sediments into our streams. And if you're in, you know, with 
sensitive cold-water habitats with salmon or trout, you know, 
as those roads are washing out, not being maintained, that's a 
direct impact on habitat.
    And the other thing I would think about, we don't often 
think about it when we think about recreation infrastructure is 
things like boat ramps. And I think that the boating industry 
in this country is huge. About 70 percent of the boating is 
done with, you know, according to NMM, National Marine 
Manufacturers, for fishing in mind, but you know, we need to 
really pay attention to that infrastructure as well, just boat 
ramps on rivers, on our coastline and Corps of Engineers, 
Bureau of Reclamation facilities. So infrastructure runs more 
broadly than just roads and trails and campsites.
    The Chairman. Yes, yes.
    Mr. Lusk?
    Mr. Lusk. With our project we are on private property, but 
the reason our project has been successful is access to 
communities.
    So, if you want a priority, I think that your funds should 
be first spent to ensure that the communities, these rural 
communities that are sometimes islands in the midst of these 
fast, federal tracks, have access to the trails.
    We use user fees. And that is one of the things that you 
don't see a tremendous amount on federal lands but, you know, 
the folks that come into our recreation, it's a motorized 
recreation. It's a high-impact recreation. We have to get out 
there with bulldozers and maintain these trails. We have 
sediment control issues. We have parking areas. So, you know, 
it's not unfair to ask a user of a resource to pay a small fee 
to utilize that resource. We do it. Fifty thousand people a 
year come to southern West Virginia and pay to use that 
resource. We, in turn, take that money and reinvest it into the 
public access, into the infrastructure.
    So I think that user fees shouldn't be overlooked as a way 
to maintain. It will certainly stretch the federal dollars much 
farther. And if you want the communities to be partners, then I 
think it's access. Those communities have to have access to 
these resources.
    The Chairman. Good.
    Dan, we all know that forest roads in the Tongass have been 
a long and a perennial issue. But other infrastructure issues?
    Mr. Kirkwood. Yeah, I think certainly it's a balance 
because our clients have such an expectation of wild places in 
Alaska. And the demand is really changing. People want to get 
out.
    You know, these generations that are visiting Alaska now 
are so much more active than the generations before. And of 
course, Alaskans have the highest rate of participation in 
outdoor recreation tied with Montana.
    I think collaboration is key, collaboration with rural 
communities, collaboration with businesses.
    At our Visitor Products Group we try to develop a priority 
list of infrastructure. And that was very difficult to do. It 
takes a more concerted effort. It takes a bigger circle of 
folks.
    And I think the public-private partnerships will continue 
to be a positive way forward, but the Forest Service needs the 
ability to be a good partner. They need the staff and the 
ability to make partnerships that work for businesses.
    The Chairman. Good enough.
    Senator Manchin.
    Senator Manchin. First of all, I want to thank all of you 
for a great hearing here. We are learning an awful lot.
    It is important that you all give us the feedback. I mean, 
we really want to get something done. We want to, basically, 
remove the impediments.
    A lot of the times we might think that we are doing 
something, and we write a piece of legislation of rules and 
regulations. By the time they get to you all, it is not what 
that was intended to do and it created more of an obstacle than 
it did an advantage. So this input is really, really important.
    The big input that we are facing right now in both of our 
states is climate change, what climate has done and, you know, 
people--you have certain people that deny that it really is 
humans.
    What they can't deny in the last 100 years is the horrific 
impact that humans have had. There has always been climate 
change, always will be a climate change but with human 
involvement, human activity, and everything else, we have 
accelerated it. And we know that.
    Alaska is affected. West Virginia is affected. How has it 
affected the industry? And do you see it changing in what you 
all can do?
    We will start with Mr. O'Keefe and, Dan, we will have you 
come in and anybody else who wants to. And I have one follow-up 
after that.
    Dr. O'Keefe. Yeah, well I would just say briefly, you know, 
summer rafting seasons and a lot of places throughout the West 
and across the country when the snow is melting, that's the 
fuel for their recreational economy around whitewater rafting. 
And if that snowpack is not there, it has a direct economic 
impact on local communities who depend on that.
    Senator Manchin. I am hearing you are going to have a good 
year this year of rafting, right?
    Dr. O'Keefe. It's looking good this year.
    [Laughter.]
    Senator Manchin. Dan?
    Mr. Kirkwood. Well, climate change is certainly something 
that is very visible in Alaska. The Mendenhall Glacier Visitor 
Center is as much a climate change education center as anything 
else as we watch that glacier recede.
    But I think, you know, the other thing that I think a lot 
about are our wild salmon. We need to make sure that they have 
a good place to come home to as things in the ocean are 
changing. And when salmon runs are low that really impacts our 
ability to show folks bears. We have something really special 
there with our wild salmon in Alaska.
    Senator Manchin. Yes.
    How about on the snowmobiles? It has to be affecting that. 
I mean, unless you are getting hit a little differently.
    Ms. Mitchell. Oh, definitely. It definitely impacts sales 
when there's no snow. Nobody buys snowmobiles.
    Senator Manchin. You have seen a change because of----
    Ms. Mitchell. Oh, it definitely has. Where we get snow, 
when we get snow. I no longer think there's such a thing as a 
normal winter. They're all erratic.
    But because it's changing, and the Forest Service needs to 
take that into consideration. For example, there's an area up 
in north Idaho called the Selkirks. It was caribou habitat and 
snowmobilers, by court order, have been eliminated from using 
the Selkirks even though it's opened in a forest plan. The 
caribou have now been, they're gone. The last caribou was 
exported back to Canada. That area should be open for 
snowmobiling. But they don't respond to that quickly, as you 
know.
    So it does change and the Forest Service needs to change 
because that's the definition of the use, the landscape 
changing and the needs and the use changing. And they need to 
evaluate that and change their management----
    Senator Manchin. We might be able to help you there.
    Anybody else want to say something on this before I go to 
something else?
    Mr. Fosburgh. Yeah, I'm going to chime in on this one too 
because I think if you're a hunter or an angler, you're seeing 
it every place you look. I mean Minnesota does not have a moose 
season anymore because they're losing all their moose because 
they're dying of tick infestations. It's not getting cold 
enough to kill the ticks. The waterfowl migrations are on 
average about two weeks later now than they used to be. Elk 
aren't coming out of the mountains during the hunting season 
sometimes because it's not getting cold enough to push them 
down.
    And we have a place like Montana where you have river 
closures routinely now on rivers like the Jefferson, the 
Blackfoot and others because it gets too hot and, you know, 
temperatures are getting too low.
    We have algae blooms in a bunch of our Great Lakes, off the 
coast of Florida, all of which are, you know, pollution related 
but they're also the fact that it's getting hotter and staying 
hotter for longer periods.
    So you can't ignore this stuff and again, as I said in my 
testimony, I think if we actually really invest in our public 
lands, reforestation, better management, things like that, that 
helps, you know, in part, solve this problem. Invest in 
migration corridors so these animals that are going to have to 
move can move. So I think there's a lot of things that are not 
scary, but are really good things for hunting and fishing but 
also address the impacts of climate change.
    Senator Manchin. Jeff?
    Mr. Lusk. I'll just say in our area and, of course, we're 
in an area that's an area that produces carbon and what we saw 
is, you know, is the impact is, is we're having to reinvent our 
communities.
    We think what we're talking about here today, trails, 
recreation, access to public lands, might be a good way of 
helping some of those communities that have been impacted as 
some of their core industries have decreased. And I think, you 
know, what we've talked about today is very relevant to that.
    I know our season is getting much longer in West Virginia 
for trail riding, you know, winters are getting a little milder 
and it's increasing our season. It's increasing some 
recreational opportunities.
    Senator Manchin. Let me just ask this and I will start with 
you again, Jeff, on this.
    I know the challenges that we have in different areas, 
especially a lot of us depend on private investment, lodging, 
different ways that the private industry can get involved. In a 
hard-hit area, economically, like southern West Virginia, there 
are people who have a hard time getting access to capital.
    Are there any programs that you see in the Federal 
Government that could help with promoting recreation to where 
people could have access to capital to build infrastructure for 
accommodations and the like?
    Mr. Lusk. That is a true issue in all of rural America.
    Senator Manchin. Yes.
    Mr. Lusk. And southern West Virginia is no different.
    What we see with our entrepreneurs is certainly access to 
capital becomes the primary issue. I know these folks are in 
rural areas. We don't have these----
    Senator Manchin. Any programs that you know of? Any 
programs you know of that basically the Federal Government can 
help you access this capital for this purpose and intention?
    Mr. Lusk. Yeah, I think the programs that most come to mind 
are things like our federal EDA programs, our ARC POWER 
program, POWER+ program which is providing some money to 
venture capital funds like the Natural Capital Investment Fund 
that is in southern West Virginia lending money right now.
    But the SBA could actually wade in and help with loan 
guarantees in these businesses, make introductions to banks, 
actually get capital to providers in other parts of the country 
to maybe look at southern West Virginia. And I think those 
introductions can be best made by someone like the Small 
Business Administration.
    Mr. Fosburgh. And I think your situation where we look at 
we've lost a lot of the, you know, timber capacity in the 
western United States as mills have shut down. They're not 
going to come back by themselves unless, I think you want to 
look at things like a revolving loan fund out of USDA to help 
small mills come back to, you know, take care of a lot of that 
timber management we're going to need to see because it doesn't 
make any economic sense to be able to truck those logs, you 
know, thousands of miles to someplace to get them processed.
    Senator Manchin. Let me just say, thank you.
    Anybody else, any comments?
    [No response.]
    I just want to thank you. I think it has been tremendously 
educational for us. But this is something that has to be a 
continuing conversation. We want you to converse with us, give 
us the top concerns you have and the impediments you are 
running into. If something might have been well-intended that 
didn't end up helpful when it got to you, we want to know.
    Thank you.
    The Chairman. Thank you, Senator Manchin.
    I just have a couple of quick follow-ups, and then I am 
ready to wrap here as well.
    But the issue that Senator Manchin has raised, the impact 
of climate change and what we are seeing--whether with winter 
sports and snow coming later or just not as good as snow for 
skiing, for snowmobiling, the like, for dog mushing. We 
recognize that that change has impact.
    I think several of you have mentioned that one of the 
things you would like to see with the agency is a little more 
flexibility as they are dealing with this, recognizing that the 
season may not be the same calendar that the agency has been 
operating off of for the past 25 years. And so, I think that is 
important to recognize.
    Senator Wyden said something in his conversation. He said 
the recreational season was beginning. I want us to think that 
the recreational season is 365 days a year. And in some parts 
of the country, that is a little bit challenging. It is like 
sports, you move from one different activity to another. But it 
is something that, in Alaska, we have long sought to build is 
greater winter tourism opportunities because we think we have 
extraordinary things.
    Right now, in the State of Alaska, everyone in the state is 
following our biggest winter activity which is the 1,100-mile 
Iditarod race. The winner got to Nome yesterday. Nine days and 
some odd hours. But you think about that and some might not 
think that that is recreation. It is a lot of hard work. But it 
is an extraordinary part of, not only of our state's history, 
but it is something the tourists want to see when they go out 
to Juneau. They go up on top of the Mendenhall Glacier, and 
they are able to take a dog sled ride up there.
    But how can we be doing more to help these rural 
communities, again, or these places that are just smaller? They 
need to be making money not just in June, July and August.
    What we hear an awful lot--and, Dan, you probably know a 
lot of these folks. They work real hard in the summer and then 
in the winter we don't have that influx of tourists so they go 
down to Costa Rica and they will be river guides down there. It 
is a pretty nice life, but what we would really like to do is 
attempt to build out these opportunities in another or extended 
season, move out this shoulder season.
    Do any of you feel that, again, trying to get it back to 
the things that we can unravel here, are there issues where you 
have agencies that just aren't used to dealing with these new 
asks? For instance, up in Alaska we have more that are 
interested in doing heli-skiing opportunities. Well, we just 
really have not had much opportunity before so we didn't have 
the people that were focused on it. When we get to the 
permitting process, again, I am rambling a little bit but I am 
trying to determine if process-wise we are limiting, the 
agencies are limiting, our ability to try to expand more into 
the shoulder season to create a more year-round economic 
opportunity. Comments on that?
    Dan?
    Mr. Kirkwood. Yeah, thank you, Senator.
    I'm familiar with the heli-skiing challenges and the 
challenges of planning for new recreation opportunities. And I 
think part of that derives from a planning effort that has been 
piece-by-piece. Okay, we'll plan for small ships. Okay, now 
we'll plan for hikes.
    But I think that there might be an opportunity and not 
something I'm very familiar with but would love to talk with 
your office more about is are there opportunities to think 
collaboratively on the large scale so that we're not finding 
our permits ending a half mile away from the beach because no 
one has done the important NEPA work to think about the 
interior of the island, for example. Certainly the, you know, 
the agency has a responsibility and it's an important one to do 
that analysis, but I think there's a chance to think big scale 
and long-term about recreation.
    And certainly winters are something that we're focused on 
in Alaska, and we do see our seasons growing both in the fall 
and the spring as well.
    The Chairman. That is a good thing.
    Dr. O'Keefe. Let me, if I could, just share a quick 
anecdote with you.
    So I had one of our members who was interested in providing 
a new opportunity as you described. And the response he got 
from the agency was this isn't a bad proposal. It's actually 
got a lot of merit, but we just have so much required work to 
do that we don't have time for discretionary projects like 
this.
    The Chairman. So they view it as discretionary.
    Dr. O'Keefe. Yeah, so now when did outdoor recreation 
become a discretionary project?
    And I think if this body could really change that 
conversation to make this an intentional part of the priorities 
for the agency and not just discretionary, that would be a huge 
benefit for these communities across the country.
    The Chairman. Good. Important.
    Ms. Mitchell. We have a small community in central Idaho 
that used to have two populations when you drove in to their 
town. One was summer and one was winter, and it declined 
immensely in the winter. That has changed because of 
snowmobiling and winter sports, snowshoeing. People are now 
coming to this small community, and it's actually enlivened. 
It's given them a winter economy, and it saved them year-round.
    The Forest Service will never be accused of being flexible, 
and they need to become advocates of adaptive management. They 
need to respond to the new forms of recreation.
    Many times you'll look into the forest plan and in the 
standard they will say, no new forms of recreation are allowed. 
They simply have drawn a line. And that stops progress.
    It stops these small rural communities that are literally 
starving. Their schools are crumbling. And they have all the 
resources around to build an amazing economy, but they're not 
allowed to because the Forest Service simply will not respond 
accordingly.
    And he's absolutely right, they need to understand that 
recreation is the largest use of the federal land. It's the 
future for the economy of the rural communities.
    The Chairman. Let me ask on that question because I know 
that certainly in the Southeast area what I have heard from 
others is that if you have a lot of area around you but with 
the permits and the process that is out there, more and more 
outfitters and guides are being pushed into the same areas and 
that you are not seeing other areas that are being opened. 
Limitations on, you know, if you are the new outfitter that 
wants to come on you really don't have that opportunity to 
create your own small business there.
    Mr. Kirkwood, in terms of what we have been seeing, is it 
getting any better, is it getting worse in terms of just, kind 
of, the congestion into the same areas?
    I know that we hear this coming out of Ketchikan a lot 
where you have a few areas where those who are getting off the 
cruise ships can go do a small float plane ride, touch down in 
a few chosen lakes but it is very limited. And so, what they 
are seeing is just increased pressure there on the limited 
number of permits.
    Mr. Kirkwood. Yeah, thank you, Senator.
    You know, the Tongass is such a large place, the largest 
national forest. But when it comes to the recreation resources, 
I think in the northern part of Southeast, where I live, we see 
a lot of crowding as well. And that's because the places that 
are both beautiful to hike or a good place to anchor a boat, 
you actually start to whittle down to a handful of really good 
places.
    Now as our tourism season has expanded, what some are 
calling Alaska awakening in April and May, we're now seeing 
more visitors than ever before early in the season. We have 
folks who want to go into the wilderness and go on a hike in 
maybe some of the same places where a bear hunting guide is 
running their operation. We certainly have no argument with 
that but those are two very different experiences that neither 
wants to participate in together.
    So this year I can report that, you know, leaders, I would 
say, innovators in the Forest Service have brought the bear 
hunters and the small ship cruise guides together.
    The Chairman. Good.
    Mr. Kirkwood. This has been a great success for everyone to 
learn about their different businesses and to create best 
management practices that have built on other programs like the 
Wilderness Best Management Practices in Tracy Arm, the Tourism 
Best Management Practices in Juneau that have really been 
successful at helping people stay out of each other's way and 
provide that very classic Alaskan experience.
    The Chairman. A couple of final questions, I know I said my 
others were going to be the final. Whit, you mentioned the need 
for digitization which just seems so basic and commonsense. So 
making sure that we address that is something that you would 
seemingly think would be easy. But it does appear that 
something just as routine as that could actually help 
facilitate some of the issues that you have raised in your 
testimony and with the report that has been prepared and handed 
down.
    Dan, you also mentioned the metrics and making sure that we 
are gathering the data and understanding the value that is 
coming here. In terms of the metrics then that are currently 
being used, is it naive to assume that the agencies collect 
this and that they use the same metric or is this part of our 
problem?
    Mr. Kirkwood. Thank you, Senator.
    In advance of coming down here I spoke with a friend who 
works at the Forest Service and asked for what some of the 
metrics they were responsible were. And so, for a place that 
has visitors coming in increasing numbers with crowding and 
infrastructure issues, the response was well, the metric I need 
to meet is I need to create seven new recreation programs. 
Okay. What does that do? Where does the rubber meet the road? 
Why are we not measuring things that will have the positive 
impacts?
    And I think that there are so many of them that new 
metrics, like I said, that have already been developed for 
piloting in Region 10 with data the Forest Service already 
captures will be really helpful for them to tell us, to tell 
you, what they're doing and how they're succeeding. They can 
deliver incredible success for us. They have and they can 
continue to. They deserve credit for it.
    The Chairman. So others, do the agencies--is there a 
consistency in terms of the metrics, do we know?
    Dr. O'Keefe. I mean, I would add that the, you know, the 
Forest Service has a national visitor use monitoring program 
and it's standard methodology they have used for many years. 
But it doesn't capture the nuances of a lot of the different 
activities that are happening out on the national forests.
    And it also, I believe, they don't currently do a 
sufficient job to look at the quality of visitor experiences. 
So it's not just, you know, the number of people that are going 
out there, but what's the quality of the experience. And 
they're doing some work in that regard, but I think we could do 
that in a much more intentional way.
    The Chairman. Well, you have given us all some really good 
feedback here this morning.
    Again, I noted the five reforms, I think, that you are 
suggesting, Mr. Fosburgh, that I think are some things that the 
Committee can look to in terms of--you mentioned the BLM 
disposal criteria within FLPMA--what more can be done to just 
really understand the inventory issue as it relates to BLM and 
Forest Service.
    I think we have some things to look at with regards to the 
permitting, the metrics, but very, very helpful. I think there 
is a keen recognition that while at the same time many of us as 
users are just out there for fun, the men and women that help 
us get out there and have that fun, whether it is on the river 
or on the mountain or the outfitter who is making sure that you 
have your hunting permit and license, it is a real economy for 
them.
    And this is a healthy, great way to utilize our lands in a 
way that we can all enjoy but also gain extraordinary economic 
benefit from.
    So how we help facilitate that, how we make sure that it is 
not our agencies that are actually holding us back, that we all 
appreciate that there is a level of regulation that is smart 
and makes sense but we also want to make sure that it is smart 
and makes sense.
    Thank you for the suggestions that you have provided to us 
today.
    Senator Risch had to go to another committee and has asked 
that several questions be submitted for the record for your 
response, Ms. Mitchell, with regard to winter travel access and 
recommended wilderness issues. So you will be seeing those. 
Other members of the Committee may also wish to submit 
questions to you for the record, so we would look forward to 
those responses as well as all you have provided for us today.
    We thank you for being here and thank you for the 
opportunity to continue this dialogue as we work to access our 
treasured federal lands.
    Thank you so much.
    The Committee is adjourned.
    [Whereupon, at 11:52 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

</pre></body></html>
